No. _______

In the
Supreme Court of the United States

Lemar Gant,
Petitioner,
v.
Brian Williams, Sr., et al.
Respondent.
On Petition for Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit
Certificate of Service

Rene Valladares
Federal Public Defender,
District of Nevada
*Jonathan M. Kirshbaum
Assistant Federal Public Defender
411 E. Bonneville Ave., Ste. 250
Las Vegas, Nevada 89101
(702) 388-6577
Jonathan_Kirshbaum@fd.org
Attorneys for Petitioner
*Counsel of Record

I, Jonathan Kirshbaum, an attorney who is authorized to file a Petition for
Writ of Certiorari on behalf of Brian Lamar Brown, hereby certify that all parties
required to be served have been served on this 5th day of October, 2020, in accordance
with Rule 28.4(a) and 29.3, one copy of the foregoing Petition for Writ of Certiorari,
Appendix, and Motion for Leave to Proceed In Forma Pauperis by delivering said
copy, on consent of opposing counsel, through electronic mail to Heather D. Procter,
Chief Deputy Attorney General, 100 N Carson Street, Carson City, Nevada 89701.
Dated October 5, 2020
Respectfully submitted,
Rene L. Valladares
Federal Public Defender
/s/Jonathan M. Kirshbaum
Jonathan M. Kirshbaum
Assistant Federal Public Defender

2

